 jOE F 1325.8
(08-93)
United States Government                                                        Department of Energy


memorandum
         DATE:    August 21, 2006                                       Audit Report No.: OAS-L-06-18
    REPLY TO
     ATTN OF:     IG-32 (A06YT024)

     SUBJECT:     Audit of "Performance Based Incentives for BWXT Y-12, LLC"

            TO:   Director, Policy and Internal Control Management, NA-66

                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy began to incorporate performance based incentive fees into its
                  major management contracts after the 1994 Contract Reform report recommended the use
                  of performance based contracting. Performance-based management contracts use
                  appropriate incentives to reward superior performance and discourage substandard
                  performance.

                  Accordingly, the Department of Energy's National Nuclear Security Administration's
                  Y-12 National Security Complex (Y-12) is managed and operated under a performance-
                  based contract. The contract, which is effective through September 2010, was awarded in
                  August 2000.

                  We conducted this audit to determine if BWXT is meeting performance objectives
                  established at the start of the performance period.

                  CONCLUSIONS AND OBSERVATIONS

                  During our audit, we noted minor weaknesses in the National Nuclear Security
                  Administration's (NNSA's) preparation and approval of BWXT's performance based
                  incentives (PBIs). Specifically, of the 34 PBIs that we judgmentally selected and
                  reviewed, we identified two instances where BWXT received full fee for technically
                  accomplishing PBI requirements although the purpose of the incentive was not met. We
                  also identified one PBI which did not reward superior performance.

                  For example, NNSA incentivized the turnover of Purification Facility Project systems
                  from the construction contractor to BWXT. The purification project will reestablish
                  production capability for one of the materials used in nuclear weapons. Although
                  management's purpose for incentivizing systems turnover was to assure that BWXT
                  completed the project as scheduled, certain project activities were completed behind
                  schedule. For instance, BWXT completed systems testing and readiness activities more
                  than five months later than planned. Since the system testing and readiness activities
                  were not included in the PBI grading criteria, NNSA paid BWXT the full $400,000
                  incentive fee although management's purpose for the PBI was not met.
In another example, a PBI for Enriched Uranium Operations (EUO) incentivized the
production of one metal button of acceptable quality to demonstrate the restart of EUO
production capabilities. EUO operations recover and purify uranium for use in nuclear
weapons. While BWXT produced a metal button, it did so from existing inventory rather
than from material generated by restarted EUO processes. This fact was noted by local
NNSA management who initially denied payment of the PBI. According to management,
this decision was later reversed due to legal counsel's determination that the PBI grading
criteria was not specific enough to withhold payment. Thus, although EUO production
capabilities were not fully operational, NNSA paid BWXT the full $50,000 incentive fee.

NNSA management agreed that PBIs had not always been properly written and the PBI
for the production of a metal button exemplified this. Officials stated that resource
constraints, particularly time and personnel, did not always allow for careful PBI
development and made the PBI process difficult. Management also stated that while it
and BWXT may agree on a PBI deliverable, in some cases, it was not specifically
documented. Therefore, if BWXT completes the work as written in the PBI, NNSA is
required to pay the full fee even if the purpose of the incentive was not met.

In addition, we found at least one instance where BWXT was rewarded for completing
backlogged maintenance work. Specifically, NNSA paid BWXT over $132,000 to
address backlogged corrective maintenance job requests. We noted that the majority of
these requests (89 percent) were written after BWXT was awarded the contract, therefore,
BWXT was paid to reduce its own backlog. In our opinion, incentivizing a contractor to
eliminate maintenance backlogs rewards less than superior performance and is contrary to
Departmental guidance, which requires PBIs to be challenging and to motivate
contractors to meet and exceed higher levels of performance.

SUGGESTED ACTION

We suggest that NNSA ensure that PBIs are clearly written to achieve their purposes.
Specifically, NNSA should (1) ensure that the intent of the incentive is agreed upon and
expressly stated in the PBI grading criteria; (2) include all of the appropriate Federal and
contractor personnel (legal, program, administrative) in meetings where PBIs are
developed; and (3) ensure that PBIs pertain to activities that challenge the contractor.

SCOPE AND METHODOLOGY

The audit was performed between January 2006 and April 2006, at the Y-12 National
Security Complex in Oak Ridge, Tennessee.

To accomplish the audit objective, we reviewed PBI documentation for Fiscal Years 2003
through 2005, except for security-related and classified PBIs. We also reviewed
Department policies regarding PBIs and interviewed key personnel.

The audit was conducted in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we assessed
                                      2
the Department's compliance with the Government Performance and Results Act of 1993.
We found that NNSA had established specific performance incentives. As noted above,
however, we determined that these incentives did not always reward superior
performance or discourage substandard performance. We did not rely extensively on
computer processed data to support our analyses.

We verbally discussed the contents of this letter with the Director, Policy and Internal
Control Management on August 3, 2006, and he waived an exit conference. Since no
formal recommendations are being made in this Letter Report, a formal response is not
required. We appreciated the cooperation of your staff throughout the audit.



                                       G ge W. ollard, Acting Director
                                       National Nuclear Security Administration
                                         Audits Division
                                       Office of Inspector General

cc: Team Leader, Audit Liaison Team, CF-1.2
    Audit Liaison, Y-12 Site Office




                                      3
